HHS/OIG, Audit - "Review of State Childrens Health Insurance Program
Eligibility in California," (A-09-06-00022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of State Childrens Health Insurance Program Eligibility in California," (A-09-06-00022)
July 27, 2007
Complete
Text of Report is available in PDF format (783 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The California Department of Health Services and the
Managed Risk Medical Insurance Board (referred to collectively as the State
agencies) (1) made some State Childrens Health Insurance Program (SCHIP)
payments on behalf of beneficiaries who did not meet Federal and State
eligibility requirements and (2) did not always adequately document eligibility
determinations.  Of the 191 payments in the statistical sample, 7 payments
totaling $259 (Federal share) were unallowable because the beneficiaries were
ineligible for SCHIP.  In addition, for 12 sampled payments totaling $410
(Federal share), the case files were missing or did not contain adequate
documentation supporting eligibility determinations.
As a result, for the 6-month audit period,
we estimated that the State agency made between 104,162 and 407,226
payments totaling between $2,081,901 and $14,248,148 (Federal share) on behalf
of ineligible beneficiaries.  We also estimated that case file documentation did not adequately
support eligibility determinations for an additional 220,344 to 600,063
payments totaling between $4,996,337 and $20,829,931 (Federal share).
We recommended that the State agencies use the results of
this review to help ensure compliance with Federal and State SCHIP eligibility
requirements by (1) reemphasizing to beneficiaries the need to provide accurate
and timely information and (2) requiring
employees of MAXIMUS, Inc., and the
California county government offices to verify eligibility information and
maintain appropriate documentation in all case files.
The State agencies agreed with the recommendation.